 LITTLE HARBOR CONSULTANTS’
INVOLVEMENT IN RESOLUTION OF
   EMPLOYEE COMPLAINTS AT
   MILLSTONE POWER STATION


 CASE NO. 98-03S   11/27/98
    OFFICE OF THE INSPECTOR GENERAL
              EVENT INQUIRY




            LITTLE HARBOR CONSULTANTS’ INVOLVEMENT IN
              RESOLUTION OF EMPLOYEE COMPLAINTS AT
                     MILLSTONE POWER STATION

                               CASE NO. 98-03S




J.G. Bodensteiner, Special Agent         W. J. Stryker, Team Leader




                               James E. Childs
                         Assistant Inspector General
                              for Investigations
                                                           CONTENTS

                                                                                                                                      Page

BASIS & SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


DETAILS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


LIST OF ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                                      BASIS & SCOPE


The Office of the Inspector General (OIG) initiated this inquiry based on information received
from several current and former employees at Millstone Station, licensed by Northeast Nuclear
Energy Company (NNECO). The employees alleged potential wrongdoing on the part of U.S.
Nuclear Regulatory Commission (NRC) staff and Little Harbor Consultants Inc. (LHC), a
consulting firm tasked with independent, third-party oversight of Millstone’s Employee Concerns
Program (ECP).

The NNECO employees alleged that an LHC team member inappropriately became personally
and substantially involved in the resolution of the complaints between NNECO and several of its
current and former employees. It was further alleged that NRC staff failed to provide sufficient
regulation of LHC activities and allowed LHC to exceed its oversight role. As a result of
concerns that the NRC staff was not properly regulating LHC activities, OIG initiated this
inquiry.

This OIG inquiry consisted of a review of the interaction between the independent, third-party
oversight program (ITPOP) organization at Millstone Station and NNECO employees.
Specifically, OIG reviewed the ITPOP’s involvement in four cases referred to it by Millstone
Station employees dissatisfied with the licensee’s ECP. In handling these specific matters, it was
alleged that ITPOP personnel had acted improperly. The OIG review focused on the process of
handling the complaints rather than the substantive merits of any of the employees’ concerns.

The OIG efforts included, but were not limited to, the following:

       1. Interviews of current and former NNECO and contractor employees assigned to
          Millstone Station.

       2. Interviews of current senior-level management at Millstone Station.

       3. Interviews of NRC staff assigned to the Special Projects Office (SPO), an
          organization within the Office of Nuclear Reactor Regulation (NRR) tasked with
          oversight of Millstone activities.

       4. A review of the following documents:

               `   NRC Order Requiring Independent, Third-Party Oversight of NNECO’s
                   Implementation of Resolution of Millstone Station Employee Safety
                   Concerns, dated October 24, 1996.

               `   ITPOP Oversight Plan (and Revision 1), approved July 14, 1997, and Revision
                   2 (submitted March 20, 1998).
               `   LHC investigations, quarterly reports, and meeting summaries.

               `   SECY-98-090, Subject: Selected Issues Related to Recovery of Millstone

                                                1
    Nuclear Power Station Unit 3, dated April 24, 1998, with attachments.

`   Other NRC, NNECO and LHC documents relevant to the ITPOP.




                                2
                                       BACKGROUND

NRC Requires Commission Approval for Restart of Millstone Units

Pursuant to Title 10 of the Code of Federal Regulation (CFR), Part 50, NRC issued Facility
Operating License Nos. DPR-21, DPR-65, and NPF-49 to Northeast Nuclear Energy Company
(NNECO or licensee) on October 31, 1986, September 26, 1975, and January 31, 1986,
respectively, authorizing it to operate Millstone Units 1, 2, and 3 at its site in Waterford,
Connecticut.

On November 4, 1995, NNECO shut down Millstone Unit 1 for a planned refueling outage.
During the fall of 1995, the NRC had identified potential violations in the refueling practices and
operation of the Millstone Unit 1 spent fuel pool cooling systems. Consequently, NRC issued a
letter to the licensee on December 13, 1995, requiring them to inform the NRC before restarting
Millstone Unit 1 of the actions taken to ensure that it would operate that facility according to the
terms and conditions of the plant's operating license, the Commission's regulations, and the
plant's Updated Final Safety Analysis Report (UFSAR).

In January 1996, the NRC designated the three units at Millstone as Category 2 plants on the
NRC's watch list as having weaknesses that warranted increased NRC attention until the licensee
demonstrated a period of improved performance. On February 20, 1996, the licensee shut down
Millstone Unit 2, and on March 30, 1996, the licensee shut down Millstone Unit 3.

In June 1996, the NRC designated the three units at Millstone as Category 3 plants on the NRC's
watch list. Plants in this category have significant weaknesses that warrant maintaining them in a
shutdown condition until the licensee can demonstrate to the NRC that it has established and
implemented adequate programs to ensure substantial improvement. Plants in this category
require Commission authorization to resume operations.

NRC Issues Order Requiring Independent, Third-Party Oversight of NNECO’s Resolution
of Employee Safety Concerns at Millstone Station

On October 24, 1996, NRC issued an Order requiring NNECO to establish an independent third-
party to oversee implementation of its resolution of employee safety concerns at Millstone
Station. The Order cited numerous licensee assessments, audits, and internal task group studies
that had been conducted to assess employee safety concerns programs at Millstone Station.
Those reviews identified numerous weaknesses in the licensee’s programs. Similarly, NRC had
conducted several inspections and investigations that led to the conclusion that the licensee’s
handling of employee safety concerns and implementation of corrective actions for problems
identified by employees remained ineffective.

As a result, the Order directed that prior to restart of any Millstone units, the licensee had to
develop and submit to the NRC a comprehensive plan for reviewing and dispositioning safety
issues raised by its employees and to ensure that employees who raised safety concerns could do
so without fear of retaliation. The Order also directed NNECO to retain an independent third-
party to oversee implementation of its comprehensive plan.

                                                 3
The Order required that the third-party organization chosen to oversee the conduct of the
licensee's comprehensive plan had to be independent of the licensee, such that none of its
members had any direct, previous involvement with the activities at Millstone Station that the
organization would be overseeing. Finally, the Order required that the plan for the independent
third-party, oversight must continue to be implemented until the licensee demonstrated by its
performance that the conditions that led to the requirement of that oversight had been corrected
to the satisfaction of the NRC.

NRC Approves ITPOP and Its Oversight Plan

On April 7, 1997, NRC approved Little Harbor Consultants, Inc. (LHC) as the independent,
third-party oversight program (ITPOP) organization at Millstone Station. On May 2, 1997, LHC
submitted for NRC approval its oversight plan (Plan) detailing activities to oversee NNECO’s
implementation of its comprehensive plan.

The Plan identified three primary activities. First, LHC was to assess Millstone’s safety culture.
Second, LHC was to conduct programmatic evaluations to verify that programs being used to
correct existing problems at the site and to prevent recurrence of these problems have been
properly designed and subsequently implemented. LHC’s third responsibility was to
communicate and report its observations, conclusions, and recommendations to the public,
licensee management, and to the NRC.

The Plan specified that the ITPOP team would utilize several types of activities in the conduct of
its evaluations:


•   Structured interviews with members of employee and contractor populations.

    •   Employee surveys.

    •   Observations of day to day activities at the Millstone facilities.

    •   The conduct of focus groups consisting of employees and contractor personnel.

Pursuant to the Plan, LHC’s evaluations would focus on the licensee’s efforts to correct and
prevent repetition of past failures in its treatment of employee concerns; evaluate actions to
create an environment in which employees and contractors are encouraged and feel free to raise
concerns; determine if the concerns, once raised, are reviewed and resolved in a timely manner;
and conduct assessments and evaluations of changes in the programs associated with employee
concerns.

In June 1997, NRC interviewed and reviewed résumés of LHC personnel to confirm that they
were assigned to tasks within their areas of expertise. On July 14, 1997, NRC approved the Plan


                                                  4
proposed by LHC to oversee the implementation of NNECO’s employee safety concerns
program (ESCP). NRC staff concluded that LHC’s Plan had the scope and depth necessary to
provide appropriate oversight for judging the effectiveness of NNECO’s ESCP in resolving and
disposing employee safety concerns.




                                              5
                                          DETAILS


OIG Reviews LHC Activities in Four Specific Matters

According to several current and former NNECO employees at Millstone Station, LHC personnel
became substantially involved in resolving employee complaints against the licensee. They
allege that, in doing so, LHC abdicated its role as an independent third-party observer. While the
NNECO employees expressed their appreciation for the assistance LHC provided them, they
were concerned that Millstone’s Employee Concerns Program (ECP) had not improved and had
remained ineffective. They alleged to OIG that LHC failed to remain neutral in its oversight of
the ECP and instead assumed the duties and responsibilities of the ECP to ensure its success.
The employees expressed concern that if or when NRC decided that LHC’s “oversight” was no
longer necessary at Millstone Station, the plant would be left with an ECP that was unable to
resolve employee safety concerns in a manner consistent with NRC regulations.

OIG reviewed four specific instances in which the NNECO employees alleged that LHC had
acted improperly. These cases are referred to as follows and are summarized below:

   `   The Matter of a Former Quality Control Inspector (QCI)

   `   The Matter of Nine Quality Control Inspectors (QCI’s)

   `   The Matter of Two Contractor Employees

   `   The Matter of the Female Nuclear Engineer

The Matter of a Former Quality Control Inspector

A Quality Control Inspector (QCI) formerly assigned to Millstone Station told OIG that he was
originally one of ten QCIs who filed joint complaints against NNECO management over
personnel matters. He said he became frustrated with NNECO’s apparent inability to resolve the
joint dispute, and he decided to negotiate separately with NNECO to resolve his complaint.
According to the QCI, LHC team member Billie GARDE became substantially involved in the
resolution of his complaint instead of simply observing the licensee’s handling of the matter.
Specifically, the QCI alleged that (1) GARDE assisted in drafting his settlement demand to
NNECO, (2) that GARDE encouraged the QCI not to use his former legal counsel to review the
proposed settlement, and (3) that once an agreement was reached, GARDE attempted to persuade
the QCI not to seek modification of the settlement agreement.

The settlement agreement reached between the QCI and NNECO included a provision wherein
the QCI agreed to accept a position with NU outside Millstone Station. The QCI told OIG that
shortly after accepting a new position within NU, he returned to Millstone to interview for a job
vacancy. The QCI stated that on his way to the interview he saw GARDE, who tried to persuade


                                                6
him not to seek another position at Millstone.

Billie GARDE was interviewed by OIG, and she denied that she was substantially involved in the
settlement of the QCI’s case. GARDE told OIG there were numerous reasons she closely
monitored NNECO’s handling of the QCI’s complaint. First, GARDE said the QCI’s case had
high visibility at the plant, and LHC wanted to ensure that NNECO treated the QCI fairly.
GARDE explained that the QCI was negotiating a settlement directly with senior NU officials.
Because the QCI was negotiating without the benefit of counsel, GARDE said LHC closely
observed the process to ensure that a mutually satisfactory resolution was reached and that
NNECO did not take advantage of the unrepresented employee.

GARDE said that while the QCI’s initial list of settlement demands was drafted with his former
attorney’s assistance, the QCI released his attorney of record prior to reaching a settlement with
NNECO. GARDE acknowledged that she helped the QCI rewrite his settlement demands at the
QCI’s request. GARDE said that she simply helped him to better articulate his thoughts in
writing. Prior to submitting the list of demands to NNECO, GARDE said she recommended that
the QCI allow his counsel to review it. GARDE said it was her understanding that the QCI’s
attorney retyped the final settlement demands, and he was fully aware of settlement negotiations
between the QCI and NNECO.

GARDE said the QCI later asked her to review NNECO’s proposed settlement offer, but she
declined. GARDE said she clearly informed the QCI that she could not advise him on legal
matters and that he needed to have his own attorney review the settlement offer. GARDE told
OIG that she provided the QCI with the name of a second attorney only after the QCI told her he
did not want to rehire his former counsel. GARDE denied that she told or encouraged the QCI
not to use his former attorney to review the proposed settlement agreement and said she had no
motive to do so. To the contrary, she stated it was in everyone’s interest that the proposed
settlement agreement be reviewed by the QCI’s attorney prior to its signing so as to minimize
possible disputes later. GARDE said there was no concern that the QCI’s former attorney would
obtain confidential settlement information.

GARDE related to OIG that she briefly met with the QCI at Millstone a short time after he was
reassigned from Millstone to another NU site. When she asked why he was at Millstone, the QCI
responded that he returned to the plant for a job interview. GARDE said she told the QCI that it
was not a good time to return to Millstone and recommended that he give his current position
more of a chance. She told the QCI to “let the dust settle” and wait until Millstone Station got
beyond restart activities before considering returning to the plant. GARDE said NU was very
busy at the time with restart issues, and she did not believe they would carefully consider the
QCI’s request until restart activities were completed. GARDE’s advice to the QCI was personal
and was not based upon information she had received from NU.



The Senior Vice President and Chief Administrative Officer (CAO), NNECO, told OIG that she


                                                 7
personally handled settlement negotiations with the QCI. She told OIG that she had oversight
responsibility for Millstone’s Human Resources groups, and she became involved in the matter at
the QCI’s request when he alleged that Millstone personnel were unable to resolve his complaint.
The CAO stated during the several settlement negotiation meetings she attended with the QCI, no
counsel for NNECO was present. She stated that NNECO did not have counsel partly because
the QCI was not represented by counsel. The CAO recalled that the QCI signed a letter
withdrawing his counsel prior to their beginning settlement discussions.

The CAO also told OIG that GARDE did not become involved in the negotiation process and
that GARDE maintained her role as an impartial observer. The CAO stated that GARDE told the
QCI that she could not provide him legal advice. The NNECO official added that the QCI
appeared to feel more comfortable with GARDE present during negotiations and that it was not
until the first week in April 1998 when he wanted to return to Millstone did complaints about
GARDE surface.

The Matter of Nine Quality Control Inspectors

It was alleged to OIG that GARDE abdicated her role as an impartial observer by participating in
mediation and arbitration discussions between the NNECO and nine of its Quality Control
Inspectors (QCIs) who had filed suit against NNECO over personnel matters. It was further
alleged that during the course of those settlement discussions, GARDE provided NNECO
management with confidential information pertaining to the amount of money the nine QCIs
would accept as a settlement.

The attorney representing the nine QCIs told OIG that GARDE attended a mediation session
between NNECO and the QCIs on January 30, 1998, and later attended an arbitration session on
April 9, 1998. GARDE was present as an impartial LHC observer of the proceedings. The
attorney explained that during the January 30, 1998, mediation session, most of the disputes
between NNECO and the nine QCIs were resolved. During a private meeting attended by only
the QCIs and their attorney, the QCIs decided upon a monetary amount that they would accept to
settle the case. That amount was then written on a chalk board in their meeting room. By the
end of the evening, however, the parties were unable to reach agreement on a monetary
settlement, and they agreed to allow an arbitrator to decide the matter.

According to the QCIs’ attorney, a dispute arose during the April 9, 1998, arbitration session
over the amount of the QCIs’ monetary settlement demand. The attorney told OIG that NNECO
management was angry during the meeting that the nine QCIs were then seeking a settlement
amount nearly double of what the QCIs were willing to accept on January 30, 1998. The QCIs’
attorney stated to OIG that somehow NNECO management learned of the monetary amount the
QCIs had privately agreed upon during the January 30, 1998, mediation session. The attorney
suspected that GARDE learned of the QCIs’ settlement range while she observed the January 30,
1998, mediation session and provided that information to NNECO management.

Despite his suspicion, the QCIs’ attorney felt that GARDE’s involvement in the settlement


                                               8
process was valuable. He said GARDE was proactive in getting NNECO representatives who
had a good rapport with the QCI group involved in the negotiations, and GARDE provided
valuable insight during the mediation and arbitration sessions. The attorney commented that
GARDE’s involvement had been very positive for his clients, and he felt the process would not
have proceeded as well had GARDE not been involved.

GARDE told OIG that she attended the January 30 and April 9, 1998, settlement meetings at the
request of the QCIs’ attorney, and that her presence was approved by all parties. GARDE said
LHC was concerned over NNECO’s lack of progress in resolving the QCIs’ dispute and
identified a need to oversee NNECO’s handling of the settlement process.

GARDE said she spent much of her time at the January 1998 mediation meeting educating the
mediator about how NRC operates. Also, each side requested GARDE’s opinion on matters and
she provided it.

GARDE denied that she abdicated her role as an impartial observer by attending the mediation
and arbitration discussions, and denied that she became substantially involved with the
settlement negotiations. Further, GARDE denied revealing confidential settlement information,
including the proposed monetary settlement amount, to NNECO management or anyone else.
She stated that the settlement figure she allegedly revealed was openly displayed to all parties on
the chalk board in a meeting room used by the QCIs during the January 30, 1998, session, and the
specific amount was discussed by the parties (including NNECO) during negotiations.

During an OIG interview, Michael H. BROTHERS, Vice President for Operations, Millstone
Station, stated that GARDE did not provide him or other NNECO officials with any confidential
settlement information.

The Matter of Two Contractor Employees

It was alleged to OIG that GARDE became substantially involved with the resolution of the
alleged wrongful termination of two contractor employees assigned to clerical duties at Millstone
Station. According to the two fired individuals, GARDE pressured NNECO management into
rehiring them.

The two contractor employees explained to OIG that they were terminated without notice on the
afternoon of December 5, 1997. One of the fired clerks contacted a former NNECO employee
who was familiar with various processes for raising employee concerns. During the weekend of
December 6-7, 1997, the former NNECO employee contacted GARDE via telephone to voice
concerns on behalf of the two terminated contractor employees.

GARDE confirmed to OIG that she had been contacted by telephone while at home during a
weekend by a former NNECO employee. The former NNECO employee complained that the
two clerical employees had been wrongfully fired by a contractor at Millstone Station, and he
asked LHC to look into the matter. GARDE said she immediately contacted Millstone V.P.


                                                9
BROTHERS and left a detailed message about the incident on his home telephone answering
machine. She stated that by the time she spoke to BROTHERS on Monday, December 8, 1997,
he had already arranged to have the clerks returned to the payroll pending NNECO’s review of
their terminations.

On January 22, 1998, the two contractor employees met with the contractor representative and
BROTHERS to review the matter. Also present at the meeting were counsel for the contractor
employees, counsel for NNECO, and GARDE. During the meeting, the contractor employees
explained to BROTHERS the events leading up to their termination in December 1997, and
complained that while they had been receiving pay, they had not been allowed to return to work
at Millstone.

The two contractor employees told OIG that during the course of the meeting, it did not appear
that NNECO would identify job positions for them. They said that during a break in the meeting,
GARDE met privately with BROTHERS and NNECO counsel. Immediately after that break,
they said BROTHERS instructed them to return to Millstone the following day, and he stated that
NNECO would find them positions. The two contractor employees told OIG that they had the
impression that GARDE pressured NNECO to resolve their complaint.

During an OIG interview, GARDE denied pressuring NNECO management to resolve the
dispute between the two contractor employees and NNECO. To the contrary, GARDE told OIG
that by the time she met with BROTHERS during the break of the January 22, 1998, meeting,
BROTHERS had already decided to allow the two employees to return to Millstone.

BROTHERS told OIG that he attended the January 1998 meeting with the contractor employees
because he had overall responsibility for Millstone’s ECP. BROTHERS explained that during a
break, GARDE asked to speak with him outside the meeting room. BROTHERS said GARDE
asked him what he intended to do about the situation, and BROTHERS informed GARDE that
he intended to have the two contractor employees immediately report to Millstone for work.
BROTHERS said that he reached that conclusion prior to speaking with GARDE and that
GARDE did not attempt to influence his decision.

The Matter of the Female Nuclear Engineer

It was alleged to OIG that GARDE became substantially involved with the resolution of a
complaint raised by a female engineer assigned at Millstone Station. It was further alleged that
GARDE threatened to sue NU if the employee’s complaint was not favorably resolved.

The female employee told OIG that she initially brought her concern regarding inconsistent
promotion policies within her division to NNECO management. She said that when it became
apparent that her management chain would not resolve her concern, she reported the matter to
Millstone’s Department of Human Resources (HR), and she later brought her complaint to
Millstone’s ECP. When she became dissatisfied with ECP’s progress, a coworker advised her to
contact LHC.



                                                10
According to the female engineer, she met with GARDE and explained her dissatisfaction with
the ECP’s handling of her complaint. The female engineer told OIG that GARDE recommended
that she send a memorandum explaining the situation to the Senior Vice President (VP) and
Chief Administrative Officer for NU. Within weeks of sending the memorandum, the female
engineer was promoted.

The female engineer told OIG that she did not believe GARDE became personally involved in
the resolution of her complaint, and she said GARDE did not threaten to sue NU on her behalf.
The female engineer opined that GARDE acted as a coach to her. She told OIG that GARDE
never gave her legal advice.

The Senior VP provided OIG with information consistent with the female engineer. The Senior
VP explained that the female engineer’s complaint had been left unresolved for months, and
because of the validity of the female engineer’s concern, the Senior VP resolved the issue in a
week. The Senior VP told OIG that GARDE did not threaten NU or its personnel with a lawsuit
or otherwise act inappropriately. The Senior VP stated that GARDE’s only involvement in this
case was her speaking to the female engineer at some point.

GARDE denied to OIG that she threatened to sue NU on behalf of the female engineer if her case
was not resolved. GARDE stated that she may have commented to the engineer and her
coworker that if she could have brought only one case against NU, she would have selected the
female engineer’s. GARDE said her comment was intended to reflect her opinion as to the
merits and validity of the concern; it was not intended to convey a personal desire to sue NU.

NNECO Senior Management Provides Views on LHC Activity

As the Vice President of Operations at Millstone Station, BROTHERS had overall responsibility
for Millstone’s ECP and had numerous dealings with LHC and GARDE. BROTHERS described
GARDE to OIG as being balanced and fair. He told OIG that he never thought she acted as
anything other than an independent observer. BROTHERS stated GARDE never proposed
specific settlements for cases NNECO was attempting to resolve, although GARDE did provide
information related to the size of monetary awards or other settlements awarded in similar
unrelated cases. BROTHERS thought GARDE was a magnet for personnel issues of all types
and said employees sought her for guidance. BROTHERS never observed or received reports of
GARDE acting as counsel for any employees.

According to BROTHERS, LHC performed well at Millstone, and under its charter LHC was
allowed to intervene as a last resort in order to prevent harm. BROTHERS noted that when LHC
initially became the ITPOP, it was more actively involved in handling employee concerns.
Subsequently, LHC has moved more to an oversight role as NU has become more proficient in
handling employee concerns.




                                              11
OIG Reviews NRC Order and LHC Oversight Plan

NRC’s Order of October 24, 1996, required NNECO to establish an ITPOP. The Order also
contained the following specific directives relating to the ITPOP’s oversight responsibilities:

   `   The independent third-party shall monitor and oversee the Licensee’s efforts to correct
       and prevent repetition of its past failures in its treatment of employee concerns and of
       those employees who raise such concerns.

   `   The oversight plan shall include observation and monitoring of the Licensee’s activities,
       performance of technical and audit reviews, investigation of concerns, and assessment of
       changes in the Licensee’s treatment of employee concerns as compared to past practices.

   `   Recommendations are to be made to address the handling of specific concerns as well as
       the Licensee’s programs and processes for handling concerns.

Additionally, the ITPOP was directed to report concurrently to the NRC and NNECO the results
of its oversight activities, including all findings and recommendations, on at least a quarterly
basis.

OIG noted that the ITPOP team fully anticipated becoming involved in employee concerns. The
Plan contained the following language:

   The independent team recognizes that, due to its role in the licensee’s recovery efforts
   and its independent status, it is possible that an individual or a group may bring a nuclear
   safety, harassment, intimidation, or discrimination issue directly to the team.

OIG determined that the Plan also detailed the steps it would take to resolve such concerns. As
previously noted, LHC’s Plan was reviewed by NRC staff and approved on July 14, 1997.

NRC Oversight of LHC Activities

On November 3, 1996, the NRC created a new organization, the Special Projects Office (SPO),
within NRC’s Office of Nuclear Reactor Regulation (NRR), to provide a specific management
focus on future NRC activities associated with the Millstone units. As part of the SPO's
responsibilities, it conducted a team evaluation of LHC oversight activities in December 1997
and January 1998. In addition, the SPO independently assessed LHC’s performance through
onsite observation and monitoring of LHC activities and during periodic meetings open to the
public between NNECO, NRC, and LHC.

According to a senior manager within SPO, NRC staff was well aware of LHC activities. The
SPO official told OIG that while the activities specified in the NRC approved LHC Oversight
Plan went beyond the requirements set forth in the Order, NRC did not object to LHC performing
those activities. The SPO official noted that the Order requiring an independent third-party
overseer was intended to preclude members of the ITPOP from having any personal or financial


                                                12
interest in Millstone. As such, ITPOP members were precluded from having significant past
experience at Millstone or with NU. The SPO official told OIG that NRC did not envision the
ITPOP remaining independent in terms of having no interaction with NNECO during the course
of its daily oversight activities. The SPO official noted that the NRC Order required the ITPOP
to make recommendations to address the handling of specific concerns. Consequently, while the
ITPOP was not supposed to manage or direct NNECO’s employee concerns program, NRC
expected that the ITPOP would have close involvement and interaction with NNECO. The SPO
official said NRC did not expect the ITPOP to be a passive observer, and the ITPOP was
expected to intervene to “prevent repetition of past failures” (citing pages 7-8 of the NRC Order)
in situations where it determined that NNECO was improperly handling matters.

OIG was told that the SPO was aware that LHC conducted several comprehensive, independent
investigations and evaluations of alleged discriminatory employment practices and intimidation
at Millstone. The SPO official pointed out to OIG that LHC findings associated with those
events were discussed at meetings attended by NRC, LHC, and NNECO. On the basis of a
review of the reports, monitoring of LHC’s conduct of the investigation, and LHC’s presentation
of its findings, the NRC staff considered LHC’s investigations to have been well conducted and
documented. LHC also monitored and conducted independent assessments of other incidents at
the site, including a deteriorating situation in the Oversight Quality Control Group. The NRC
staff determined that LHC’s investigative findings helped NNECO to understand weaknesses in
its processes associated with the events and contributed to the licensee’s development or
confirmation of corrective actions. The SPO official told OIG that NRC staff was not aware of
any LHC activities that were improper with respect to its involvement in specific employee
concerns or with LHC’s role as the ITPOP.

OIG reviewed numerous investigative reports, quarterly activity reports, and periodic meeting
summaries issued by LHC. Those documents described LHC’s high level of involvement in
resolving personnel concerns at Millstone and demonstrated that NRC staff was provided with
detailed information about LHC’s involvement in specific personnel matters.

On April 24, 1998, the NRC Executive Director for Operations (EDO) informed the Commission
that based on review of documentation, monitoring of LHC activities, and NRC team
evaluations, the NRC staff concluded that LHC effectively carried out its oversight functions.
The report also noted that LHC was particularly thorough and detailed in its oversight efforts of
licensee’s activities to improve its ECP.




                                                13
                                        FINDINGS


OIG determined that LHC became substantially involved in resolving personnel disputes
between NNECO employees and management. NNECO employees who lacked confidence in
Millstone’s Employee Concerns Program (ECP) raised concerns directly to LHC. OIG found
that LHC counseled NNECO employees on employment issues. Similarly, LHC provided
guidance and recommendations to NNECO management on resolving specific employee
complaints. However, OIG concluded that LHC’s actions were allowed by the NRC Order
establishing the independent third-party oversight program (ITPOP) and the NRC-approved
ITPOP Oversight Plan. OIG also found that NRC staff was aware of LHC activities through
discussions at meetings, reviews of documentation, onsite observation and monitoring of LHC
activities, and NRC team evaluations. The NRC staff considered LHC’s involvement with
NNECO regarding employee concern matters to be appropriate.




                                             14
                              LIST OF ACRONYMS


CAO     Chief Administrative Officer

CFR     Code of Federal Regulations

EDO     Executive Director for Operations

ECP     Employee Concerns Program

ESCP    Employee Safety Concerns Program

HR      Department of Human Resources

ITPOP   Independent Third-Party Oversight Program

LHC     Little Harbor Consultants, Inc.

NNECO   Northeast Nuclear Energy Company

NRC     U.S. Nuclear Regulatory Commission

NRR     Office of Nuclear Reactor Regulation

NU      Northeast Utilities

OIG     Office of the Inspector General

QCI     Quality Control Inspector

SPO     Special Projects Office

SCWE    Safety Conscious Work Environment




                                          15
